          Office of Audits
          Office of Inspector General
          U.S. General Services Administration



          PBS Did Not Support Scope Changes
          and Pricing for Contract Modifications
          on the Mariposa Land Port of Entry
          Recovery Act Project

          Report Number A120174/P/R/R14005
          September 25, 2014




A120174/P/R/R14005
                      Office of Audits
                      Office of Inspector General
                      U.S. General Services Administration


                                      REPORT ABSTRACT
                               PBS Did Not Support Scope Changes and Pricing for Contract
OBJECTIVE                      Modifications on the Mariposa Land Port of Entry Recovery Act
Our objective was to           Project
ensure that the corrective     Report Number A120174/P/R/R14005
actions taken by the           September 25, 2014
Public Buildings Service
(PBS) in response to our
alert report were sufficient   WHAT WE FOUND
to identify and correct        We identified the following during our audit:
improper obligations of
Recovery Act funds.            Finding - PBS did not fully define scope changes nor ensure the price
                               reasonableness of contract modifications on the project.


                               WHAT WE RECOMMEND
                               Based on our audit finding we recommend that the Regional
                               Commissioner, PBS, Pacific Rim Region:
                                  1. Perform a review of Modification PSB2 to determine if:
                                        a. The scope of work is sufficiently defined to form a binding
                                           contract, and
                                        b. Remedial action is necessary to address duplicative work
                                           in the modifications.
                                  2. Ensure that the modification files incorporating the
                                     Memorandum of Understanding include either documentation
                                     supporting fair and reasonable pricing or a written determination
                                     by the head of contracting authority identifying the award as in
                                     the best interest of the Government.
Program Audit Office
(JA-R)
1800 F Street, NW              MANAGEMENT COMMENTS
Room 5215                      PBS, Pacific Rim Region, acknowledged our audit finding and has
Washington, DC 20405           taken action on the recommendations in the report. Management
(202) 219-0088                 comments are included in their entirety in Appendix B.



      A120174/P/R/R14005                         i
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            September 25, 2014
 TO:              Michael McCormick
                  Regional Commissioner
                  Public Buildings Service
                  Pacific Rim Region (9P)

 FROM:            Susan P. Hall
                  Audit Manager
                  Program Audit Office (JA-R)
 SUBJECT:         PBS Did Not Support Scope Changes and Pricing for Contract
                  Modifications on the Mariposa Land Port of Entry Recovery Act
                  Project
                  Report Number A120174/P/R/R14005

This report presents the results of our audit of corrective actions taken by PBS in
response to our alert report on invalid obligations of Recovery Act funds. Our finding
and recommendations are summarized in the Report Abstract. Instructions regarding
the audit resolution process can be found in the email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Susan P. Hall          Audit Manager         susan.hall@gsaig.gov     202-501-2073

Gary W. Vincent        Auditor-In-Charge     gary.vincent@gsaig.gov 415-522-2747

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120174/P/R/R14005                      ii
Table of Contents
Introduction ............................................................................................................. 1

Results
Finding – PBS did not fully define scope changes nor ensure the price reasonableness
           of contract modifications on the project. .................................................. 2
                 Recommendations................................................................................... 3
                 Management Comments ......................................................................... 3


Conclusion................................................................................................................ 4

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ....................................................................... C-1




    A120174/P/R/R14005                                         iii
Introduction
On October 24, 2012, we issued an alert report to the Public Buildings Service (PBS)
and Office of the Chief Financial Officer. 1 The alert report addressed invalid obligations
of American Recovery and Reinvestment Act (Recovery Act) funds for purposes of
contingencies. 2 In the corrective action plan responding to the alert report, PBS
committed to review Recovery Act projects to identify and correct improper obligations
of Recovery Act funds.

In its review of contract files for the Mariposa Land Port of Entry renovation project, PBS
determined that corrective action was necessary for Modification PS96. PBS awarded
Modification PS96 in September 2012 to incorporate a Memorandum of Understanding
(MOU) that included a comprehensive settlement of outstanding change order requests
(COR). The MOU lists 62 “Change Order Requests Previously Submitted” and 15
“Pending Change Order Requests Not Yet Submitted” – none of which included an
associated dollar value.

PBS determined that Modification PS96 lacked the documentation necessary to support
the price and scope of work. PBS issued Modification PSB2 in December 2012 to
clarify the MOU. Modification PSB2 added Exhibit A to specify the scope of work
referenced in the MOU, expanding the number of work items in Modification PS96 from
77 to 143. Under Modification PSB2, the comprehensive settlement was funded by
reallocating $7.4 million from the cancellation of the photovoltaic system, the remaining
balances from three prior modifications, and the remaining balance of the security
allowance.

The Federal Acquisition Regulation permits global settlements as a vehicle for settling
outstanding contract issues. 3 Regional PBS officials noted the project had encountered
numerous difficulties. They considered the MOU and modifications beneficial to the
Government and necessary to prevent the construction project from coming to a halt
before project completion.

Objective

Our objective was to ensure that the corrective actions taken by PBS in response to our
alert report were sufficient to identify and correct improper obligations of Recovery Act
funds.

See Appendix A – Purpose, Scope, and Methodology for additional details.

1
  Alert Report: Limited Scope Audit of Invalid Obligations and Contingency Funding for Recovery Act
Projects, A120174/P/R/W13001.
2
  Funding for construction projects typically includes contingency funds to cover unforeseen conditions,
design deficiencies, and other changes during a project.
3
  Federal Acquisition Regulation 15.405 states “fair and reasonable price does not require that agreement
be reached on every element of cost” and “the contracting officer’s primary concern is the overall price
the Government will actually pay.”


A120174/P/R/R14005                             1
Results
Finding – PBS did not fully define scope changes nor ensure the price
reasonableness of contract modifications on the project.

PBS did not fully define the scope of work for Contract Modification PSB2 nor ensure
price reasonableness. PBS issued Modification PSB2 to clarify the scope of work
included in Modification PS96. The information to clarify the scope of work was
included as Exhibit A of Modification PSB2. However, Exhibit A did not adequately
define the complete scope of work or add the pricing support needed to clarify
Modification PS96. As such, the modification potentially constitutes an invalid obligation
to the extent that the scope of work was not completely defined. Further, the files for
Modifications PS96 and PSB2 did not contain documentation to substantiate the $7.4
million price as reasonable.

Lack of definite scope of work. We reviewed the contract files for Modification PS96,
Modification PSB2, and eight COR files listed in Exhibit A for evidence of a defined
scope of work. We found the following:

    •   Modification PSB2 - Exhibit A categorizes the CORs as either “COR in MOU,”
        “CORs Negotiated,” “CORs to be Negotiated,” or “Potential Issues.” COR 589,
        identified as a “Potential Issue” in Exhibit A, consists of an unsigned, one-page
        proposal from the contractor dated January 3, 2013 – 4 days after the
        modification was issued on December 30, 2012. Since the contractor’s proposal
        was received after the modification was issued, the scope of work could not have
        been properly agreed to, and defined, by PBS and the contractor.

    •   Three of the CORs listed in Exhibit A were awarded under separate
        modifications, totaling in excess of $2 million. As a result, the General Services
        Administration (GSA) contracted for the same work twice. Specifically:

                  Modification      Date                                               Contract
         COR        Number         Issued      COR Description of work                  Amount
        208       PS95              8/30/12 Phase 3 Security Rooms                       $925,000
        208       PSB2             12/30/12 Phase 3 Security Rooms                     $1,033,164
        304       PSA3              11/9/12 CBP Security System Design and               $982,035
                                            Construction
        304       PSB2             12/30/12 CBP Security System Design and             $1,275,704
                                            Construction
        304.1     PSB5              1/28/13 CBP Security System Design and               $115,614
                                            Construction (general conditions)
        304.1 4   PSB2             12/30/12 CBP Security System Design and               $124,584
                                            Construction (general conditions)

4
 Exhibit A of PSB2 lists COR 131.1 in the “COR to be Negotiated” category for $124,584 for CBP Phase
2 security. PBS provided a file labelled COR 304.1 for this work item. This COR is a follow on to COR
304 to provide general conditions costs.


A120174/P/R/R14005                           2
At the time of audit fieldwork completion, the contract files did not reflect that the scope
of work in the MOU was sufficiently defined, resulting in potential invalid obligations and
duplicative modifications for the same work.

Lack of price reasonableness determination. We found no evidence to support that
the contracting officer met the requirement to determine fair and reasonable pricing, as
required by Subpart 15.402 of the Federal Acquisition Regulation. The files for
Modifications PSB2 and PS96 did not contain documentation to substantiate price
reasonableness, such as an independent government estimate, price negotiation
memorandum, pre-negotiation position, determination for required cost or pricing data,
or other documentation to support fair and reasonable pricing. Given the lack of a
definitive scope of work, as well as a lack of price support, PBS has no assurance that
the pricing for the modification was fair and reasonable.

Recommendations

We recommend that the Regional Commissioner, PBS, Pacific Rim Region:

   1. Perform a review of Modification PSB2 to determine if:

          a. The scope of work is sufficiently defined to form a binding contract, and
          b. Remedial action is necessary to address duplicative work in the
             modifications.

   2. Ensure that the modification files incorporating the Memorandum of
      Understanding include either documentation supporting fair and reasonable
      pricing or a written determination by the head of contracting authority identifying
      the award as in the best interest of the Government.


Management Comments

PBS acknowledged our audit finding and has taken action on the recommendations in
the report. Management comments are included in their entirety in Appendix B.




A120174/P/R/R14005                       3
Conclusion
We do not question the use of a Memorandum of Understanding to incorporate
numerous change orders in a single settlement. Rather, our audit finding is focused on
the lack of a defined scope of work and price reasonableness determination. PBS
reallocated $7.4 million in Recovery Act funds to the contract to settle outstanding
contract issues. However, PBS did not sufficiently define the complete scope of work
for these services, thereby creating the potential for partially invalid obligations and
duplicative work. Also, PBS did not demonstrate that the pricing for the work was
reasonable.

The complexity and size of the Mariposa Land Port of Entry renovation may have been
a factor in the issues identified in this report. Mariposa is the third busiest land port in
the United States and had to remain open during construction. The project included
multiple phases of demolition and new construction work from November 2009 to
August 2014. In addition, the project was GSA’s third costliest Recovery Act project
with total construction costs of $187 million, including $173 million in Recovery Act
funds.




A120174/P/R/R14005                       4
Appendix A – Purpose, Scope, and Methodology
Purpose

In its corrective action plan to our alert report, PBS stated that it would review Recovery
Act projects to identify any potentially invalid contract modifications. PBS committed to
take corrective actions where necessary to correct improper obligations, record proper
obligations, or de-obligate improperly obligated funds.

We performed this audit to ensure PBS’s corrective actions were sufficient to identify
and correct improper obligations of Recovery Act funds.

We initiated this audit with the understanding that these funds, if not properly obligated,
were to be rescinded on December 31, 2012, in accordance with the Dodd-Frank Wall
Street Reform and Consumer Protection Act. However, GSA has provided guidance
that these funds were not subject to rescission as they had expired before the date of
the rescission.

Scope

The audit scope is limited to modifications to the construction contract for the Recovery
Act project to renovate the Mariposa Land Port of Entry. 5

We initially reviewed eight modifications, totaling $8,397,284, identified by PBS as
potentially improper or invalid obligations. This sample included Modification PS96,
which PBS identified as lacking documentation supporting price reasonableness and a
fully defined scope.

Since PBS issued Modification PSB2 to clarify the scope of PS96, we added this
modification to our sample. Modification PSB2 incorporated a revised list of 143 CORs
as Exhibit A. We selected eight of these CORs for review, choosing some from each of
the four categories of COR in Exhibit A and focusing on the larger dollar amounts.

During the review of the eight sampled CORs, we noted that three of them were funded
by separate modifications, despite the fact they were listed in Exhibit A of Modification
PSB2. We also added these three modifications to our review.

Methodology

To accomplish our objective, we:

      •   Reviewed and analyzed contract modification files for 12 modifications for the
          Mariposa Land Port of Entry project;
      •   Reviewed the corrective actions that PBS completed for Mariposa modifications;

5
    Contract Number GS-09P-10-KT-C-0005 for pre-construction and construction services.


A120174/P/R/R14005                            A-1
   •   Judgmentally selected 8 CORs, totaling $3,394,516, from the 143 items in Exhibit
       A of Modification PSB2, to determine the support for pricing and scope;
   •   Interviewed PBS contracting and project staff; and
   •   Reviewed applicable guidance and regulations.

We conducted the audit from October to November 2013 in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our finding and conclusions
based on our audit objective.

Internal Controls

As this audit was performed under the continuing oversight of all GSA Recovery Act
projects, management controls are currently under assessment.          Only those
management controls discussed in the report have been assessed.




A120174/P/R/R14005                    A-2
Appendix B – Management Comments




A120174/P/R/R14005    B-1
A120174/P/R/R14005   B-2
A120174/P/R/R14005   B-3
Appendix C – Report Distribution
Commissioner, PBS (P)

Deputy Commissioner, PBS (PD)

Chief of Staff, PBS (P)

Regional Recovery Executive, PBS, Pacific Rim Region (9P2PT)

National Program Office ARRA Executive (PCB)

Chief of Staff, PBS Office of Construction Programs (PCB)

Regional Administrator, Pacific Rim Region (9A)

Regional Commissioner, PBS, Pacific Rim Region (9P)

Regional Counsel, Pacific Rim Region (LD9)

Branch Chief, GAO/IG Audit Response Branch (H1C)

Strategic Program Manager, PBS Program Mgmt. & Support Div. (PCBF)

Analyst, PBS Program Mgmt. & Support Div. (PCBF)

Audit Liaison, PBS (BCP)

Audit Liaison, PBS, Pacific Rim Region (BPAA)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Investigations (JID)

Director, Office of Internal Operations (JI-I)

Executive Assistant, Office of Investigations (JI)




A120174/P/R/R14005                       C-1
